<html>
<title> - ACKNOWLEDGMENT AND APOLOGY</title>
<body><pre>[Senate Hearing 109-97]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-97

                       ACKNOWLEDGMENT AND APOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                              S.J. RES. 15

    TO ACKNOWLEDGE A LONG HISTORY OF OFFICIAL DEPREDATIONS AND ILL-
 CONCEIVED POLICIES BY THE U.S. GOVERNMENT REGARDING INDIAN TRIBES AND 
 OFFER AN APOLOGY TO ALL NATIVE PEOPLES ON BEHALF OF THE UNITED STATES

                               __________

                              MAY 25, 2005
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
21-531                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S.J. Res. 15, text of............................................     2
Statements:
    Bigpond, Sr., Negiel, president, Two Rivers Native American 
      Training Center............................................    15
    Brownback, Hon. Sam, U.S. Senator from Kansas................     8
    Hall, Tex, president, National Congress of American Indians..    11
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    Thomas, Edward K., president, Central Council Tlingit and 
      Haida Tribes of Alaska.....................................    13

                                Appendix

Prepared statements:
    Bigpond, Sr., Negiel.........................................    21
    Hall, Tex....................................................    26
    Thomas, Edward K.............................................    27
Additional material submitted for the record:
    Remarks of Kevin Gover at the Ceremony Acknowledging the 
      175th Anniversary of the BIA September 8, 2000.............    24

 
                       ACKNOWLEDGMENT AND APOLOGY

                              ----------                              


                        WEDNESDAY, MAY 25, 2005


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met pursuant to notice, at 10:07 a.m. in room 
485, Senate Russell Building, Hon. John McCain (chairman of the 
committee) presiding.
    Present: Senators McCain and Dorgan.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Today's hearing addresses S.J. Res. 15, a 
joint resolution to acknowledge the contributions of Native 
Americans to this country but also the long history of official 
depredations and ill-conceived policies by the U.S. Government 
regarding Indians.
    The resolution apologizes to Native Peoples on behalf of 
the United States. I commend Senator Brownback for introducing 
the measure and I look forward to his testimony. I note that he 
introduced an apology resolution in the last Congress. That 
resolution, passed by unanimous consent of this committee with 
an amendment in the nature of a substitute, was never acted on 
by the full Senate.
    S.J. Res. 15 apologizes for the several hundred years of 
wrongs the Federal Government has perpetrated against Native 
Americans. Reviewing the history of this Government's treatment 
of Native peoples makes painfully obvious that the Government 
has repeatedly broken its promises and caused great harm to the 
Nation's original inhabitants.
    While remembering our past wrongs is important, it is also 
important that we answer those wrongs with vigorous actions and 
policies that actively promote the well-being of Native 
Americans today.
    [Text of S.J. Res. 15 follows:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. I would like to mention that Senator Dorgan 
is in the Energy Committee markup this morning and he will try 
to get here as quickly as he can. He has an ethanol amendment. 
I certainly hope that it fails.
    I would like to welcome my friend, Senator Brownback and 
note what is well known to all of his continued advocacy for 
human rights throughout the world whether it be in South Dakota 
or the Sudan. The fact he has introduced this resolution of 
apology is only a graphic demonstration of the concern that 
Senator Brownback has shown for all men and women throughout 
the world and his dedication to human rights.
    We are honored to have you this morning, Senator Brownback. 
Please proceed as you see fit. Thank you.

   STATEMENT OF HON. SAM BROWNBACK, U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman.
    Thank you for holding this, to my knowledge, first ever 
hearing on a topic of this nature, an official apology to the 
Native Americans of the United States. I think it is an issue 
that is very important to the long term health of the United 
States and it is an issue that has lain unresolved for far too 
long.
    You will hear from several experts today about what happens 
to a people group when a wrong has been committed and nothing 
ever acknowledged and yet, years later it continues to fester 
and remain in place. The issue is our Nation's relationship 
with the Native peoples of this land and it goes that basic.
    Every member of this committee is very familiar with the 
legacy of the native tribes on our continent. We know that long 
before 1776 and the establishment of the United States of 
America, this land was inhabited by numerous nations. Like our 
Nation, many of these peoples held a strong belief in the 
Creator and maintained a powerful physical and spiritual 
connection to the land itself. They sowed the land, tilled it, 
journeyed it, and protected it.
    My constituents in Kansas and myself have a similar 
attachment to the land. Like many in my State, I was raised on 
the land. I grew up farming it and caring for it. I, and many 
in my State, established a connection to it. We care for our 
Nation and the land of our forefathers so greatly that we, too, 
are willing to serve and protect it, as faithful stewards of 
the creation God has blessed us with. I believe without a doubt 
that citizens across this Nation share in this sentiment and 
know its unifying power. Americans have stood side-by-side for 
centuries to defend and benefit this land we love.
    Both the Founding Fathers of the United States and the 
indigenous Tribes that lived here were attached to this land. 
Both sought to steward and protect it. There were several 
instances of collegiality and cooperation between our 
forbearers that are well known, examples such as Jamestown, VA, 
Plymouth, MA, and in aid to explorers Meriwether Lewis and 
William Clark.
    Yet, sadly, since the formation of the American Republic, 
numerous conflicts have ensued between our Government and many 
of these tribes, conflicts in which warriors on all sides 
fought courageously and in which all sides suffered. Yet, even 
from the earliest days of our Republic, there existed a 
sentiment that honorable dealings and peaceful coexistence were 
preferable to bloodshed. Indeed, our predecessors in Congress 
in 1787 stated in the Northwest Ordinance, ``The utmost good 
faith shall always be observed toward the Indians.''
    Many treaties were made between this Republic and the 
American Indian Tribes. I have read most of all those that were 
entered between tribes that were in or moved to the State of 
Kansas. Treaties, we know, are far more than words on a page. 
Treaties are our word, our bond.
    Treaties with other governments are not to be treated 
lightly. Unfortunately, too often the United States of America 
did not uphold its responsibilities as stated in its covenants 
with the Native American tribes. Too often, Mr. Chairman, our 
Government broke its oaths to the native peoples.
    For too long, relations between the United States and the 
native peoples of this land have been in disrepair. For too 
much of our history, Federal-tribal relations have been marked 
by broken treaties, mistreatment, and dishonorable dealings. I 
believe it is time we worked to restore these relationships to 
good health.
    While we cannot erase the record of our past, I am 
confident that we can acknowledge our past failures, express 
sincere regrets, and work toward establishing a brighter future 
for all Americans. It is in this spirit of hope for our land 
that I have introduced S.J. Res. 15 to extend a formal apology 
from the United States to tribal governments and native people 
nationwide.
    I want my fellow Senators to know that the resolution I 
have introduced does not dismiss the valiance of our American 
soldiers who fought bravely for their families in wars between 
the United States and a number of the Indian tribes. Nor does 
this resolution cast all the blame for the various battles on 
one side or another.
    What this resolution does do is recognize and honor the 
importance of Native Americans to this land and to our Nation, 
in the past and today, and offers an official apology to the 
native peoples for the poor and painful choices our Government 
sometimes made to disregard its solemn word.
    Mr. Chairman, this is a resolution of apology and a 
resolution of reconciliation. It is a first step toward healing 
the wounds that have divided us for so long, a potential 
foundation for a new era of positive relations between tribal 
governments and the Federal Government. It is time, it is past 
time, for us to heal our land of division, all divisions, and 
bring us together as one people.
    Before reconciliation, there must be recognition and 
repentance. Before there is a durable relationship, there must 
be understanding. This resolution will not authorize or serve 
as a settlement of any claim against the United States, nor 
will it resolve the many challenges still facing native 
peoples. It does recognize the negative impact of numerous 
deleterious Federal acts and policies on Native Americans and 
their cultures. Moreover, it begins the effort of 
reconciliation by recognizing past wrongs and repenting for 
them.
    As I close, allow me to commend President Bush for his 
poignant words in Latvia earlier this month that I think bear 
repeating and serve as a statement here. He said, ``The only 
way we found to rise above the injustices of our history was to 
reject segregation, to move beyond mere tolerance, and to 
affirm the brotherhood of everyone in our land.'' I sincerely 
hope we can affirm the brotherhood of this land between all 
people groups, especially the Native people with whom the U.S. 
Government has a special covenant relationship.
    The United States is admired by many around the world as a 
beacon of freedom and a respecter of human dignity. I hope we 
can recognize our wrongs against our Native brothers and seek 
healing.
    Dr. Martin Luther King, a true reconciler, once said, ``The 
end is reconciliation, the end is redemption, the end is the 
creation of the beloved community.'' This resolution is not the 
end, but, perhaps it signals the beginning of the end of 
division and the faint first light and first fruits of the 
creation of beloved community.
    I worked with a number of people in the last Congress, 
Senator Campbell, Senator Inouye, in crafting this apology 
resolution. I also worked with a number of the tribal groups. 
The resolution before us today, S.J. Res. 15, is identical to 
the version that was approved unanimously by this committee 
last year.
    Before I leave, I would like to enter into the record, 
remarks made by the head of the Bureau of Indian Affairs [BIA] 
on the 175th anniversary of the BIA, September 8, 2000, 
acknowledging a number of the specific wrongs and saying there 
were a number positive things that have been done but we also 
must acknowledge this past. There was actually an apology 
issued by the BIA to the native tribes. I would like to put 
that into the record.
    Senator McCain. Without objection.
    [Referenced materials appears in appendix.]
    Senator Brownback. I would finally note, Mr. Chairman, this 
has been a long journey for me. It started when I was first 
elected to the Senate and went to the tribes in the State of 
Kansas to meet with them and at the Haskell Indian University 
in Kansas to meet with people there.
    There was a deep-rooted bitterness there. It was very 
apparent. I said what is the source of this. The more I was 
around the native people, their American experience and the 
shared tragedies that were continually passed down from 
generation to generation had built in a deep rooted bitterness 
that needs to be resolved and needs to be dealt with.
    This doesn't finish that off but it does start the process 
and I think it is an extraordinarily important and necessary 
step for us to heal the land. That is why I am so strongly in 
favor and supportive of it.
    I really appreciate you holding this first ever hearing. 
You are very busy with a number of issues you could take up. 
This is not an easy one, although I know the chairman doesn't 
pick easy tasks as reflected this week. I can't think of a 
better person for this to come before than yourself.
    Thank you.
    Senator McCain. Senator Brownback, I want to assure you 
that we will mark up this resolution as quickly as possible. 
Unless there is some objection of members of the committee, and 
I don't know of any yet, and then maybe I can do what I can to 
assist you to get some floor consideration of this issue. I 
would be glad to support you in whatever way I can.
    Thank you.
    Senator Brownback. Thank you very much.
    Senator McCain. Thank you, Senator Brownback.
    Our next panel consist of Tex Hall, president, National 
Congress of American Indians, who is an old friend of this 
committee; Edward K. Thomas, president, Central Council Tlingit 
and Haida Tribes of Alaska; and Negiel Bigpond, Sr., president, 
Two Rivers Native American Training Center, Bixby, OK.
    Dr. Bigpond, I was out at the University of Oklahoma and 
spoke at their graduation last week. I was very pleased to see 
that on the campus of the University of Oklahoma, there were a 
lot of reminders of Native Americans and their contributions to 
the State of Oklahoma. I was very impressed by that.
    I am going to talk to the president of Arizona University 
to see if we can't do a little better.
    Tex, you are up first, given your 300th appearance before 
this committee.

STATEMENT OF TEX HALL, PRESIDENT, NATIONAL CONGRESS OF AMERICAN 
                            INDIANS

    Mr. Hall. Good morning. My name is Tex Hall, president of 
the National Congress of American Indians and tribal chairman 
of the Mandan, Hidatsa and Arikara Tribes of North Dakota.
    Before I begin, I want to briefly thank you for what I have 
seen on television for the last month, the leadership that was 
exhibited by you and I believe 14 members of the Senate that 
helped preserve the Senate rules on filibustering for judicial 
nominees. It took great leadership and I want to thank you in 
public for that.
    Senator McCain. Thank you, sir. I think my reward will be 
in heaven. [Laughter.]
    Mr. Hall. On behalf of NCAI we want to thank you for giving 
us the opportunity to testify for support of S.J. Res. 15 which 
would acknowledge the many misdeeds of the United States in its 
interactions with Native Americans and recognizing and honoring 
the importance of Native Americans to this land and to our 
country in the past and today.
    I also want to thank Senator Sam Brownback for his 
leadership and for his commitment and diligence in introducing 
this resolution, as well as Senators Boxer, Dodd, Inouye, 
Dorgan, Cochran, and Akaka for cosponsoring this apology 
resolution.
    We all know of the atrocities wrought against native people 
in the United States, the holocaust, the land theft, the forced 
removals, the boarding school experience completely wiping out 
the language and cultures of our native brothers and sisters, 
the broken treaties, and the attempts to undermine our status 
as sovereign nations.
    Passage of the Apology Resolution would mark the Federal 
Government's first effort to extend an official apology for the 
years of wrongdoing in interactions with Indian tribes. It is a 
long-time coming.
    A similar Apology Resolution enumerating the various 
wrongdoings of the U.S. Government in relation to the Native 
Hawaiians and the Kingdom of Hawaii was passed and signed into 
law by President Clinton in 1993. The Canadian Government 
likewise apologized to its First peoples in 1998.
    NCAI's leadership worked with Congressional leadership in 
the last Congress to analyze the impact of this landmark 
resolution which was first introduced in the 108th Congress by 
Senator Brownback, for himself, Senator Ben Nighthorse 
Campbell, and Senator Dan Inouye.
    NCAI solicited responses from tribes to the proposed 
language and facilitated discussions among tribal leadership 
and Congress on this issue. Tribal leadership responses across 
Indian country give us a variety of their comments to the 
apology resolution. I would like to briefly share some of those 
with you.
    First, it is important to recognize the intensity of the 
reaction of tribal leaders to the apology resolution which 
demonstrates that the destructive policies addressed in this 
resolution are not a fading distant past for Indian people. 
They are present today and continue to be felt in very real 
ways every day.
    We continue to live with the legacy of the Federal 
Government's misguided policies of the past as well as present 
day policies that continue to undermine our ability to live as 
robust, healthy self-determining people. Tribal leaders have 
stressed that the apology must recognize contemporary and not 
just historical problems in Indian-Federal Government 
relations.
    Many Government policies continue to reflect a reluctance 
to truly recognize tribes as sovereign governments. For 
example, tribes, unlike other governments, are limited in their 
ability to raise money by issuing tax exempt bonds. Tribes are 
also left out of the funds that the Federal Government has 
directed to every State for homeland security.
    Tribal law enforcement agencies do not have the 
jurisdiction and resources they need to protect public safety 
and recent Supreme Court decisions have blurred the lines of 
jurisdiction at the borders between State and tribal lands.
    Tribal leaders have commented that an apology may be the 
first step in reconciliation between tribes and the U.S. 
Government, but for this to be true, the apology must be more 
than words on paper. There is a lot of unfinished business that 
must be attended to before true reconciliation can be achieved. 
As one tribal leader said, apologizing does not in any way wipe 
the slate clean or let anyone off the hook.
    I had the opportunity to testify before this committee on 
the President's proposed fiscal year 2006 budget. I said at the 
time, Indian people are deeply disappointed that the budget did 
not support strong self-government and self-determination for 
tribes.
    There was drastic cuts to many of the programs vital to the 
health and well being of our people, with health care and 
medical assistance being sorely needed and under funded. These 
programs are guaranteed to us, as we know, by solemn treaties 
and tribes paid for these services by ceding approximately 3 
billion acres of land to the United States.
    A strong Federal commitment to make good on old promises to 
provide resources for services, prevention programs and health 
care are badly needed. To many an apology rings hollow when the 
U.S. Government has continued to fail to fulfill these treat 
promises. Only when coupled with a continued commitment to the 
government-to-government relationship and Federal Indian 
programs like health, education and housing can the apology 
resolution truly begin to make a meaningful difference for 
Indian tribes. Another tribal leader put the resolution to be 
like apologizing for stepping on someone's foot while you 
continue to stand on that foot.
    The message we would like to leave you with today is that 
we clearly support this historic resolution but we must also 
recognize it is a first step toward reconciliation.
    Native Americans have come through extraordinarily trying 
times over the past two centuries, and we have emerged strong 
and growing as a population. Native Americans are the fastest 
growing segment of the population by percentage. However, we 
have a long way to go.
    An apology implies a recognition that an injustice occurred 
and the importance of this recognition cannot be 
underestimated. It also implies, however, that there is a will 
to try to do something about the harms that are caused by that 
injustice.
    True healing must begin with a recognition of the harm, but 
it cannot stop there. An apology cannot substitute for 
upholding the hundreds of treaties made with Indian nations and 
fully living up to the Federal trust responsibility. Tribal 
leaders have cautioned that the apology will be meaningless if 
it is not accompanied by actions that begin to correct the 
wrongs of the past and the present. Indian sovereignty is still 
under threat and Indian people are still being left behind in 
this country.
    We look forward to working with you as we move forward in 
taking the next steps toward reconciliation and securing the 
future for Indian peoples.
    Thank you very much. I would be happy to answer any 
questions.
    [Prepared statement of Mr. Hall appears in appendix.]
    Senator McCain. Thank you very much.
    President Thomas, welcome.

   STATEMENT OF EDWARD K. THOMAS, PRESIDENT, CENTRAL COUNCIL 
               TLINGIT AND HAIDA TRIBES OF ALASKA

    Mr. Thomas. I am the president of the Tlingit and Haida 
Indian Tribes of Alaska, Juneau, AK.
    First, I want to thank you for this hearing and the 
opportunity to provide my comments to this important issue. I 
want to thank Senator Brownback for introducing the resolution 
and also for his fine testimony here today.
    I rose up in reluctant support of the resolution when it 
first came about and then became somewhat concerned about it 
moving forward because of the amount of time that it was taking 
away from other issues mentioned in Tex Hall's presentation.
    I want you to know that I understand the danger in stepping 
forward in opposition to something that is proposed by 
honorable people in this Congress. I do not wish to offend the 
friends of Indian country who are in Congress; I do not want to 
appear ungrateful for those good things done by Congress for 
our people; and I don't want to jeopardize the efforts of those 
who want to do things in a good way through this apology. I 
don't want to give you the impression that we don't appreciate 
all that is being done here today for Native Americans.
    I do want you to know that my reservations about going 
forth with an apology are real and some of the things Tex Hall 
talked about are the basis of my concern, the relationships 
between the United States and America's first citizens continue 
to be very unsatisfactory. The trust relationship that this 
Nation established over the years with Native Americans is 
seriously weakened through the inadequate funding of social and 
economic development programs as well as the under funding of 
indirect costs.
    All this happens notwithstanding many reports by government 
agencies and private interests about the inadequacy of funding 
to Native Americans and the damage that does to the people who 
need that funding. All this happens, even though we worked very 
hard with this committee and with yourself on language to make 
sure that there was no theoretic under recovery of indirect 
costs. You might recall a number of years ago when you were 
chairing this committee, we worked on that language. It is in 
law but yet there still is inadequate funding for indirect 
costs. Things have deteriorated so much that it is a fact that 
Federal prisoners get more health care funding per capita than 
Native Americans at this point in time.
    Another important thing that is happening is that the 
sacred tribal sovereign powers and rights are deteriorating in 
favor of State authorities at an alarming rate by uninformed 
Federal courts. We have been working with members of Congress 
and the Administration trying our best to introduce language 
that would stop this erosion of tribal sovereign rights and 
powers. Yet nothing seems to happen in that area.
    I still don't understand what the big fear is. I know that 
tribal governments are of no great threat to States and there 
is much to be accomplished by preserving those sacred, tribal 
sovereign powers and rights.
    The government-to-government relationship between the 
United States and Indian tribes has become meaningless or has 
become a meaningless term. Both under the Democratic and 
Republican Administrations we see very little consultation on 
the development of Federal Indian policies and the Federal 
Indian budgets. Right now, the consultation is somewhat limited 
to a couple of representatives from each of the 12 BIA regions. 
They bring us in and we talk about the budgets and really 
nothing happens. No consultation happens in my part of the 
country at all on any of these issues.
    One example is the Interior Department dealing with the 
issue of trust asset management. The Bell case exists because 
somebody didn't do their job. Tribes have asked repeatedly that 
the fixing of this problem not be at the expense of existing 
tribal programs. Yet that is what is happening. Tribes have 
asked repeatedly that the BIA organization not take place at 
the expense of existing BIA budgets, yet that is what is 
happening.
    Another example I spoke of a bit earlier is the development 
of budgets. I served on the National BIA Budget Advisory 
Council. Tribal leaders came forth with much testimony sharing 
with the Administration our priorities. When all was said and 
done, the assistant secretary's priorities ended up in the 
budgets, ours did not.
    Not only that, some of our priorities were cut so that his 
could be included in the budget. Some other very important 
priorities such as education were also cut just so the former 
assistant secretary's priorities could be in the budget. The 
point is that after all the meetings and consultation, our 
priorities went nowhere and the Administration put their own 
priorities in place.
    I also want to point out that I did have a longer list in 
my written testimony that I provided for the record. If there 
is no objection, I would like that put in the record.
    Senator McCain. Without objection, it will be in the 
record.
    Mr. Thomas. In conclusion, I want to thank you very much 
for this opportunity to speak on this very important 
resolution. I hope that an apology will come forth somewhat 
like Mr. Hall stated. Apologies are good; sincere apologies are 
better. Apologies joined with positive action that corrects and 
compensates for the problems and ills of the past are the best 
apologies.
    Thank you very much.
    [Prepared statement of Mr. Thomas appears in appendix.]
    Senator McCain. Thank you very much.
    Dr. Bigpond.

 STATEMENT OF NEGIEL BIGPOND, Sr., PRESIDENT, TWO RIVERS NATIVE 
                    AMERICAN TRAINING CENTER

    Mr. Bigpond. Thank you, Chairman.
    I too want to thank the Senate Indian Affairs Committee for 
allowing me to speak today. Although my testimony will last 
more than 5 minutes, I will keep it at that time.
    I was born November 7, 1949, in Oklahoma and am a full 
blood member of the Euchee [Yucci] tribe which was adopted into 
the Creek Nation. I am a descendant of Noah Gregory, peace 
chief of the Euchee Nation. I grew up in Okmulgee, OK and 
attended the Chilocco Indian Boarding School where I and many 
other native children were emotionally and physically abused.
    I am a business owner, and also a fourth generation 
minister from Methodist lineage to native people in 158 tribes, 
and to many non-native congregations. I held the position of 
Human Services Director for the Creek Nation for 7 years, and 
am a certified drug and alcohol abuse counselor. Along with Jay 
Swallow, Southern Cheyenne/Sioux, I co-founded the Two Rivers 
Native American Training Center in Mounds, Oklahoma.
    In the beginning of my work on this Joint Resolution of 
Apology and hoped-for proclamation by President George W. Bush 
started in July of 1997 in Oklahoma. During a conference a 
group of non-native individuals began to apologize to Dr. Jay 
Swallow and myself. This set off a major reconciliation move in 
Oklahoma which is still continuing.
    This vast and great land now called America is troubled and 
filled with brokenness and disorders of many kinds, high rates 
of crime, violence and murder, a divorce rate at 50 percent of 
all marriages, broken families, middle class people struggling 
to make ends meet even in a ``good'' economic time, widespread 
depression, suicide now the third greatest cause of death among 
all teenagers, rampant substance abuse and addiction, and more 
men and women in prison than in any other western nation. 
Racism and ethnic troubles abound. Many youth sit ``homeless'' 
as both parents work long hours. New and deadly types of 
disease are entering society. Death waits at our door 
seemingly.
    I believe that acknowledging past atrocities and asking the 
indigenous ``first nations'' people of this land for 
forgiveness is needed as a ``first step'' for a healing of the 
land now called America to be released. This will be a healing 
not just for Native American people, but all the people of this 
land, black, white, Hispanic and Asian, all ethnic groups. Many 
ethnic and immigrant backgrounds have been involved since the 
``first contact'' by Columbus and others.
    In my many travels around the world, I have met many people 
and they now the plight of the Native American people and have 
studied the treatment of the native people by the Federal 
Government. It is my belief that they use this broken history 
as fuel to develop hatred toward America. Together, our purpose 
must be to heal the land and to remove the heaviness which I am 
sure that this Senate knows and deals with on a daily basis. 
The weight of the loss of millions of native indigenous people, 
of our painful broken history, and the dishonor and disorder is 
great.
    All of our peoples are in great need of healing, especially 
as we are going through so much, in war, not just overseas, but 
here on the home front. Hatred and terrorism stare at us. We 
live in a time of great fear. Fear always leads to anger, 
hatred and strife. This anxiety streams into all of our homes, 
Native and non-Native alike.
    Members of the human family are not just mind and body. 
They are spirit. Each man, woman and child, we all now this is 
our heart. Regardless of what we each think or believe, just as 
our warriors our soldiers who are facing death today on the 
battlefield in Afghanistan, Iraq and many other places and the 
spirit of a person and of a people can be wounded and crushed.
    Apology, the exchange of forgiveness and a show of respect 
and honor always brings a fresh freedom to our spirits, our 
minds, our bodies. Apology and reconciliation is good medicine 
to the heart of a person or a nation. America needs this heart 
medicine and spiritual healing. The broken promises and history 
of all our peoples needs healing.
    Why, some of you ask and say that apology is unnecessary 
because the Native people have always been a part of this 
government. No, this government has never made treaties in the 
name of ``In God We Trust'' with any other people group in the 
country. It has never taken place before and broken them all, 
372 treaties with the Native people, all broken. There has been 
no public apology to this day. No U.S. President has sought 
forgiveness. Only a few have made private statements. You 
members of the U.S. Senate are taking a historical step 
forward.
    Our native soldiers have always courageously fought for 
this country in every war because they are warriors. They know 
how to survive regardless of broken treaties, regardless of the 
Third World conditions on our reservations. They survive.
    Senator McCain. Dr. Bigpond, you will have to summarize at 
this point. I would appreciate it.
    Mr. Bigpond. I just want to say, Mr. Chairman, because God 
created us to the people of the land who express gratitude and 
deserve to live in harmony and respect with this Earth, we have 
much to share. We must remember this will be history making and 
this will change our land, it will change everything.
    Thank you.
    [Prepared statement of Mr. Bigpond appears in appendix.]
    Senator McCain. Thank you very much, Dr. Bigpond.
    President Thomas, the Congress of the United States years 
ago passed an apology in 1988 and apologized for the relocation 
and internment of Japanese Americans. One of the effects I saw 
associated with that resolution was a renewed publicity and 
interest of the American people about this terrible injustice 
that was done to Japanese Americans.
    I believe that it is very likely that an apology to Native 
Americans could have the same effect because I am always 
astonished and disappointed when I find out how little 
Americans in general and even Federal officials in particular 
know about the history of our relationship with Native 
Americans, the treaties that we entered, the ones we broke, 
virtually all of them, and the unique requirements of our 
Constitution as well as solemn treaty obligations.
    One of the beneficial effects in my view of a Resolution of 
Apology by both Houses of Congress, signed by the President of 
the United States, might shed more light and knowledge 
throughout America about the history of our relationship with 
Native Americans. Do you accept that theory?
    Mr. Thomas. Without objection, Mr. Chairman, I move and ask 
unanimous consent that the bill be amended to include that 
language. What I am saying here is that the apology given by 
the Assistant Secretary in 2000 did not change even his own 
behavior toward Native Americans.
    Senator McCain. I think it is a very different thing, with 
all due respect, to an Assistant Secretary as opposed to a 
resolution signed by the President of the United States but 
please proceed.
    Mr. Thomas. Yes; that was what I was leading into. We even 
tried during that period of time to get the President or even 
the Secretary of the Interior to join the effort and went no 
where. Very little has changed as a result of that.
    The reason I was making that amendment is because if we 
were to include language that we are going to educate members 
of Congress and the public on these atrocities, yes, it will 
work but if we just pass resolutions with those of us in the 
room here, I believe it will be the same old thing.
    Senator McCain. One thing I can assure you, knowing Senator 
Brownback, if this resolution were passed by the Congress of 
the United States, it would not fade into obscurity very soon.
    Chairman Hall, would you care to comment on my comment and 
then Dr. Bigpond?
    Mr. Hall. I certainly agree with your statements, Mr. 
Chairman. This is truly historic. I never thought in my 
lifetime I would be testifying on behalf of a formal apology 
from the United States of the wrongdoings. As my fellow tribal 
leaders were testifying I was listening to their testimony and 
you are absolutely right. When you think of the past and the 
wrongdoings and you do an apology for those wrongdoings, it 
sheds light and the light has not been shed that an apology 
would be passed by the U.S. Senate and clearly would bring us 
an opportunity.
    I was just side-barring with Senator Brownback before the 
committee began and we talked about the Sand Creek. The Sand 
Creek is real, the Wounded Knee is real, the Trail of Tears, 
those are real. The various boarding school experiences where 
my own father was punished. This was not 200 years ago, it was 
one generation ago. Those are real places to visit after 
hopefully this resolution does pass and would clearly bring an 
opportunity for tribal leaders to join with members like 
Senator Sam Brownback and other Senate leaders of this apology 
resolution to shed the light and bring the focus and continue 
to help educate, inform and move things forward in a more 
positive manner than ever before. I certainly agree with that 
notion.
    Senator McCain. Could I add, I can't tell you the number of 
times constituents of mine have said, why don't we tax these 
Indian tribes, why do we allow them to have their own police 
force? These are not bad people. I don't detect in at least the 
overwhelming majority of them any racism. It is just lack of 
knowledge about solemn treaties that were entered into that 
guaranteed an exchange and nobody believes that it was a good 
deal, an exchange for vast lands that we would complete some 
obligations.
    I am worried about Indian gaming but at the same time, I 
don't know any other way. I am worried about some of the things 
that are happening with Indian gaming, how big it has gotten. 
We are having a series of hearings on this but I don't know, if 
I thought the Federal Government was fulfilling its 
responsibilities for housing, education, health care, et 
cetera, I would have a very different view.
    I am spinning off here but we want to make sure we do 
everything we can do to share the wealth on that issue and I am 
sure we will discuss that at another date.
    Dr. Bigpond.
    Mr. Bigpond. I also agree, Mr. Chairman. We have to look at 
this as the first step. This is history making. I know Edward 
Thomas' reasons are very real, there is no doubt about that. I 
understand that and applaud him, but this is the first step to 
many things. This is history making.
    My hope is that the President of the United States will 
stand before all the chiefs, all the tribes and say, can you 
forgive our Government, our forefathers for how we treated you 
and how other countries would look at the United States of 
America in a totally different way. They no longer could use 
that as an asset or something to fuel their hate toward this 
great country.
    I would just say to the Senate, they must look at the 
native people as the first Nation. We are a spiritual people, 
we are land people. We have authority over the land. It is 
always ours to us whether it was ceded or taken, whatever, it 
has always been our love.
    When that apology is made, it gives the authority to move 
forward, not go backward. Our language is a song they sang on 
the Trail of Tears, always go forward, never look back as they 
were leaving their homeland and coming to Oklahoma.
    I agree and I appreciate that very much.
    Senator McCain. President Thomas, have you still got your 
villages collapsing into the ocean because of the melting of 
the permafrost?
    Mr. Thomas. Yes; very much so.
    Senator McCain. I want you to collar Senator Brownback on 
his way out and tell him about climate change, would you?
    Thank you for coming, Sam.
    Mr. Thomas. Just another example, though, we had good 
momentum going on getting rid of what is called the honey 
bucket situation in Alaska and all of a sudden now because of 
the Park program that was in the agency that provided the 
funding, our funding got cut not because the people didn't need 
the sanitation facilities but because the agency itself was not 
adequate. The same is happening with the BIA programs. The 
inadequate management or non-responsible management, we are 
going to get punished for that even though we at the tribal 
level feel we have excellent management.
    Senator McCain. I thank the witnesses and I intend to move 
forward with consideration by the full committee on this 
resolution very soon. Thank you.
    The hearing is adjourned.
    [Whereupon, at 11 a.m., the committee was adjourned.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


               Prepared Statement of Negiel Bigpond, Sr.

    I was born November 7, 1949, in Oklahoma and am a full blood member 
of the Euchee [Yucci] Tribe which was adopted into the Creek Nation. I 
am a descendant of Noah Gregory, peace chief of the Euchee Nation. I 
grew up in Okmulgee, OK and attended the Chilocco Indian Boarding 
School where I and many other native children were emotionally and 
physically abused. I am a business owner, and also a fourth generation 
minister from Methodist lineage to native people in 158 tribes, and to 
many non-native congregations. I held the position of human services 
director for the Creek Nation for 7 years, and am a certified drug and 
alcohol abuse counselor. Along with Dr. Jay Swallow [Southern Cheyenne/
Sioux], I co-founded the Two Rivers Native American Training Center in 
Mounds, OK.
    The beginning of my work on this Joint Resolution of Apology and 
hoped-for proclamation by President George W. Bush started in July 1997 
in Oklahoma. During a conference a group of non-native individuals 
began to apologize to Dr. Jay Swallow and myself. This set off a major 
reconciliation move in Oklahoma which is still continuing.
    This vast and great land now called America is troubled and filled 
with brokenness and disorders of many kinds--high rates of crime, 
violence and murder, a divorce rate at 50 percent of all marriages, 
broken families, middle class people struggling to make ends meet even 
in a ``good'' economic time, widespread depression, suicide now the 
third greatest cause of death among all teenagers, rampant substance 
abuse and addiction, and more men and women in prison than in any other 
western nation. Racism and ethnic troubles abound. Many youth sit 
``homeless'' as both parents work long hours. New and deadly types of 
disease are entering society. Death waits at our door.
    I believe that acknowledging past atrocities and asking the 
indigenous ``first nations'' people of this land for forgiveness is 
needed as a ``first step'' for a healing of the land now called America 
to be released. This will be a healing not just for Native American 
people, but all the people of this land--Black, white, Hispanic and 
Asian--all ethnic groups. Many ethnic and immigrant backgrounds have 
been involved since the ``first contact'' by Columbus and others.
    My international travels have shown me that many countries know the 
story of the Native American people and have studied the treatment of 
the Native People by the Federal Government. Some are now using our 
broken history as fuel to develop hatred toward America.
    Together, our purpose must be to heal the land and to remove the 
heaviness which I am sure that this Senate knows and deals with on a 
daily basis. The weight of the loss of millions of Native indigenous 
people, of our painful broken history, and the dishonor and disorder is 
great.
    All of our peoples are in great need of healing, especially as we 
are going through so much, in war, not just overseas, but here on the 
home front. Hatred and terrorism stare at us. We live in a time of 
great fear. Fear always leads to anger, hatred and strife. This anxiety 
streams into all of our homes, Native and non-native alike.
    In Native homes many of our children literally fight for life every 
day. With unemployment, alcoholism, drug addiction, suicide and 
accident rates very high, many homes have no mothers, or no fathers. 
Some might be physically there, but the love is not there, so the 
children turn to whatever is there for identity and release--false 
freedom. My people, our tribes, and our entire nation needs release and 
healing--true freedom.
    While the Bureau of Indian Affairs has been a good help along the 
way, it has been an incomplete help. The Bureau is not authorized to 
issue the type of resolution and bring about the reconciliation now 
under consideration.
    Members of the human family are not just mind and body. There is a 
spirit in each man, woman and child. We all know this in our hearts 
regardless of what we each think or believe. Just ask our warriors, our 
soldiers who are facing death today on the battlefields in Afghanistan, 
Iraq and many other places. And, the spirit of a person and of a people 
can be wounded and crushed.
    Apology, the exchange of forgiveness, and a show of respect and 
honor always brings a fresh freedom to our spirits, our minds, and our 
bodies. Apology and reconciliation is good medicine to the heart of a 
person or a nation. America needs this heart medicine and spirit 
healing. The broken promises and history of all of our peoples needs 
healing.
    Why? some of you ask, and say that apology is unnecessary because 
``the native people have been always been a part of this government.'' 
No, this government has never made treaties in the name of ``In God We 
Trust'' with any other people group in this country and then broken 
them all--372 treaties with the Native Peoples--all broken! There has 
been no public apology to this day. No U.S. President has sought 
forgiveness. Only a few have even made private statements. You, members 
of the U.S. Senate, are taking a historic step forward.
    Though Native soldiers have always courageously fought in above 
average ratios in the wars to defend this country and freedom--as is 
true in Iraq right now--this is not recognized. We are taken for 
granted. Evidence of the overall disregard and respect for Native 
Peoples is seen in the fact that we were not even granted U.S. 
citizenship until 1924. There has been no apology for this long-term 
rejection and dishonor. Our children know and feel this dishonor. 
Rejection causes sickness. Internal generational pain prompts mental 
disorder and causes the body to break down. There are unresolved root 
causes behind the sadness, the depression, the rampant diabetes, 
alcoholism and drugs and suicide. I know this as I pastor and look into 
the eyes of friends dying of diabetes.
    The generational rejection we are suffering kills. On some 
reservations there are six or more suicides a month. Over the last 
decade an entire generation of young people was sacrificed to an 
epidemic of suicide on the Standing Rock Reservation in North Dakota. 
The poverty on some reservations is worse than in your inner cities. It 
is the hidden poverty that most in this Nation know nothing about, nor 
do they care to. The poverty twists your thinking. Joy drains away, and 
you lose hope and heart. The pain is so great that it deceives. Native 
teenagers begin to give up and start thinking that suicide is good, 
that ending their own life will help the family. Life expectancy on 
some reservations is as low as 40-45 years in some cases--this is in 
affluent America today! But many Native people are hidden away, and few 
see or care to see, and to know.
    Many in the past, and many today still wish we would have been 
annihilated, and that we will yet die off. We were given diseased 
blankets on purpose, and many froze and died along the forced march on 
our Trail of Tears. Certainly the sometimes calculated decimation of 
the Native American peoples from upwards of 12 million to less than 4 
million must be considered genocidal in nature? And, as in the Crusades 
and Jewish holocaust, many of the atrocities, massacres and forced 
removals came in the name of Christianity.
    Col. John Chivington who led the Sand Creek massacre on the morning 
of November 29, 1864 was a Methodist preacher. U.S. Lieutenant James 
Connor and other of Chivington's ``Christian'' soldiers have written 
eye witness accounts of how our pregnant women were disemboweled and 
mutilated, and how their private parts were cut out and proudly 
displayed as ``war trophies.'' This slaughter at Sand Creek, and others 
like it happened just days after Chief Black Kettle had met with white 
leaders and ``made peace'' and was told to just raise the U.S. flag and 
everything would be all right. Black Kettle gathered and tried to calm 
his people and raised the flag, and then the hail of bullets began and 
lasted all day. Few escaped, and most all that did were attacked again 
by ``Christian'' militia 4 years later at the Washita River massacre 
and finished off. Dr. Jay Swallow, my Southern Cheyenne/Sioux brother 
and co-founder of the Two Rivers Native American Training Center, is a 
direct descendant of the Sand Creek Massacre. His grandmother was one 
of the very few who escaped. She was a little girl and was hidden under 
a pile of wood. She survived the long day of slaughter and told her 
grandson. Dr. Swallow is another witness that can speak of the deep 
generational pain that Native people still carry from the days of 
massacre and suffering.
    Yes, our besieged Native people retaliated. Yes, there were 
atrocities on both sides. We are strong warriors, but you know how it 
is recorded that many of our Chiefs first welcomed you in peace. We 
also said that we would study you and see how your ``message'' made you 
live.
    The Bible your forbearers carried to us teaches that Satan, the 
fallen one, comes to steal, kill, and destroy. That Jesus of Nazareth 
who died on the Cross, once for the forgiveness of all men and women, 
comes to bring life and blessing, and to share it abundantly. So, many 
Native people remain confused by Christianity, and by the 
``Christians'' who came and took and ``settled'' our lands, and drove 
us away. We now call this wrong spirit ``bad Christianity.'' It should 
not be surprising that most Native people still reject the ``white 
man's God,'' and that many have returned to traditional Native 
religious practices. Some of us know that the Bible is the Word of Life 
from our Creator Father, and personally know Jesus Christ as Messiah 
and Lord, and are sorry for how many of our people cannot see Jesus and 
have rejected Him. By walking in ways of reconciliation and respect we 
are reintroducing Jesus and ``good Christianity'' to our Native people. 
The Bible is true, even if the spirit and past ways of many 
``Christians'' was not right.
    The truth remains that our Native people were not received and 
affirmed and released. I know this from many years of personal 
experience, from my work with Native people in 158 tribes, in many 
prisons, as a alcohol and drug abuse counselor, and as I pastor and try 
to build strong faith and repair families in my churches.
    I know this from the humiliation and degradation I endured as a boy 
in the Chilocco Indian Boarding School. When I first arrived I was 
excited and happy to see so many young Natives in one place, with 
different languages and traditions, yet how we talked and laughed and 
built good relationships. Then we were forbidden to speak in our 
languages, had all of our hair cutoff into the ``G.I.'' haircut, and 
the school took on a military and prison atmosphere. I was made to stay 
in an old dorm hut with broken windows. I knew very cold winters and 
very hot summers there. We got poorer and began to fight and steal from 
one another--the government gave clothes to some tribes, and not to 
others, so jealousy and envy entered in, and were turned against one 
another. Some fought and others withdrew into isolation.
    We would try to stop the anger and bad feelings by drinking, or by 
sniffing glue, paint, or lighter fluid. If caught drinking or speaking 
our tribal languages or practicing our cultural traditions our 
privileges and even food were taken away. At times we were put on bread 
and water. Sometimes we were given a bit of cheese with the bread and 
water. We were put into solitary confinement and punished. I can 
remember one night I had to defend myself from one of the counselors 
who was trying to provoke me and start trouble so he could give me 
hours of work duty, or to make me stand all night in a corner, or on 
top of a one foot by one foot box with my nose to the wall. If we were 
caught sleeping, guards would walk up behind us and bang our heads into 
the wall. I received many bloody noses and cuts on my forehead. We were 
also made to scrub floors and walls with small hand brushes and even 
toothbrushes.
    The emotional and mental abuse was very bad. We were made to feel 
that we were nothing. We were called ``dogs'' and ``stupid'' and 
``Indian'' in an angry, degrading, and mocking voice. There was sexual 
abuse as well that I would rather not talk about. I choose not to go 
into the details of all that happened there. When released and I 
returned home I would cry a lot. I developed resentments toward my 
parents and turned against authority. I could not trust authority. I 
could not adapt to public school. Many teachers treated Native and 
white students differently. I fought with white students who thought 
and acted like they were better than me. I got into trouble.
    I did go back to the school site in my later years after coming to 
a personal faith in Christ, getting reconciled with my parents. Some 
praying people came with me and helped me work through the issues and 
hurts and come into inner spiritual healing-reconciliation and healing 
is a process.
    Please know that we can forgive, if asked. For The Indian Removal 
Act and the Trail of Tears, we can forgive, if asked. For the Sand 
Creek and other massacres, we can forgive, if asked. For the Indian 
School degradation and injustice, we can forgive, if asked.
    Because God created us to be people of the land, who express 
gratitude and desire to live in harmony and respect with the earth, we 
have much to share and a great role to play in the healing of this 
Nation. We were 500 nations, and our Iroquois and other confederacies 
were examples that Benjamin Franklin and other of your founding fathers 
studied. The word ``caucus'' springs from the manner of Native tribal 
government. Then, as now, it is good to sit together and peacefully 
seek for wisdom, sound counsel and direction to move forward.
    I know it takes one who is strong to ask for forgiveness, 
especially if they feel they had nothing personally to do with past 
injustices. But now, as you draw from your authority, strength and 
courage, together we will change the history of the human family, and 
help heal all brothers and sisters--from here in Washington out across 
the whole of this continent.
    To apologize and give honor where honor is due will displace the 
brokenness and blood guiltiness that is still crying out for justice. 
Respect and mutual regard will again flow between us, from one 
honorable nation to another. Our Native people are ready for this and 
desire this, but they just don't trust in this because of the past 
history. But if they are shown and taken on this ``first step,'' then 
they will be able to believe again and will trust again.
    Just imagine what the people of the world would think, say, and 
do--if they saw this reconciliation take place. What would happen if 
the President who represents all the people of this Nation would stand 
and ask a people who will not go away and who has not forgotten, and 
who cannot forget--``Can and would you forgive this Nation for the 
wrongs our forefathers did to your people?'' This is honorable and will 
return honor. The nations of the world would then have to look at the 
United States of America in a whole different way, in a new light. It 
will be a new day. I know healing and turning history is very difficult 
for some, but not impossible.
    Imagine a U.S. President standing before the great Native Nations 
of over 600 different tribes and saying, ``We the people of the United 
States of America ask for your forgiveness--for the broken treaties, 
the massacres, and the forced removal of peoples from their lands--for 
forgiveness of these things that history records and tells us took 
place, so that we all might now live as One Nation Under God!'' This 
will stir this world. Nothing like this has ever taken place in history 
with the force and reconciling impact over a nation as this will have.
    While reconciliation is a spiritual walk, it also releases mental 
and physical results--real changes that all are able to see. Healing of 
the heart and times of refreshing will come. Before my mother died she 
called me to her side and said in our Euchee tongue: ``Nean-zo-d-towel-
ute.'' This means: ``You are like a river and without you I cannot 
exist.'' That is a picture of covenant life together. It is time to be 
the One Covenant Nation of many peoples our Creator desires. We must go 
forward and not look back again. Together, let us take this first step. 
This Resolution of Apology gives us ground to walk forward on.
    I respectfully submit this for the good of all our peoples--and for 
the healing of this whole land now called America.
                                 ______
                                 

    Remarks of Kevin Gover at the Ceremony Acknowledging the 175th 
                Anniversary of the BIA September 8, 2000

    In March of 1824, President James Monroe established the Office of 
Indian Affairs in the Department of War. Its mission was to conduct the 
Nation's business with regard to Indian affairs. We have come together 
today to mark the first 175 years of the institution now known as the 
Bureau of Indian Affairs.
    It is appropriate that we do so in the first year of a new century 
and a new millennium, a time when our leaders are reflecting on what 
lies ahead and preparing for those challenges. Before looking ahead, 
though, this institution must first look back and reflect on what it 
has wrought and, by doing so, come to know that this is no occasion for 
celebration; rather it is time for reflection and contemplation, a time 
for sorrowful truths to be spoken, a time for contrition.
    We must first reconcile ourselves to the fact that the works of 
this agency have at various times profoundly harmed the communities it 
was meant to serve. From the very beginning, the Office of Indian 
Affairs was an instrument by which the United States enforced its 
ambition against the Indian nations and Indian people who stood in its 
path. And so, the first mission of this institution was to execute the 
removal of the southeastern tribal nations. By threat, deceit, and 
force, these great tribal nations were made to march 1,000 miles to the 
west, leaving thousands of their old, their young, and their infirm in 
hasty graves along the Trail of Tears.
    As the Nation looked to the West for more land, this agency 
participated in the ethnic cleansing that befell the western tribes. 
War necessarily begets tragedy; the war for the West was no exception. 
Yet, in these more enlightened times, it must be acknowledged that the 
deliberate spread of disease, the decimation of the mighty bison herds, 
the use of the poison alcohol to destroy mind and body, and the 
cowardly killing of women and children made for tragedy on a scale so 
ghastly that it cannot be dismissed as merely the inevitable 
consequence of the clash of competing ways of life. This agency and the 
good people in it failed in the mission to prevent the devastation. And 
so great nations of patriot warriors fell. We will never push aside the 
memory of unnecessary and violent death at places such as Sand Creek, 
the banks of the Washita River, and Wounded Knee.
    Nor did the consequences of war have to include the futile and 
destructive efforts to annihilate Indian cultures. After the 
devastation of tribal economies and the deliberate creation of tribal 
dependence on the services provided by this agency, this agency set out 
to destroy all things Indian.
    This agency forbade the speaking of Indian languages, prohibited 
the conduct of traditional religious activities, outlawed traditional 
government, and made Indian people ashamed of who they were. Worst of 
all, the Bureau of Indian Affairs committed these acts against the 
children entrusted to its boarding schools, brutalizing them 
emotionally, psychologically, physically, and spiritually. Even in this 
era of self-determination, when the Bureau of Indian Affairs is at long 
last serving as an advocate for Indian people in an atmosphere of 
mutual respect, the legacy of these misdeeds haunts us. The trauma of 
shame, fear, and anger has passed from one generation to the next, and 
manifests itself in the rampant alcoholism, drug abuse, and domestic 
violence that plague Indian country. Many of our people live lives of 
unrelenting tragedy as Indian families suffer the ruin of lives by 
alcoholism, suicides made of shame and despair, and violent death at 
the hands of one another. So many of the maladies suffered today in 
Indian country result from the failures of this agency. Poverty, 
ignorance, and disease have been the product of this agency's work.
    And so today I stand before you as the leader of an institution 
that in the past has committed acts so terrible that they infect, 
diminish, and destroy the lives of Indian people decades later, 
generations later. These things occurred despite the efforts of many 
good people with good hearts who sought to prevent them. These wrongs 
must be acknowledged if the healing is to begin.
    I do not speak today for the United States. That is the province of 
the Nation's elected leaders, and I would not presume to speak on their 
behalf. I am empowered, however, to speak on behalf of this agency, the 
Bureau of Indian Affairs, and I am quite certain that the words that 
follow reflect the hearts of its 10,000 employees.
    Let us begin by expressing our profound sorrow for what this agency 
has done in the past. Just like you, when we think of these misdeeds 
and their tragic consequences, our hearts break and our grief is as 
pure and complete as yours. We desperately wish that we could change 
this history, but of course we cannot. On behalf of the Bureau of 
Indian Affairs, I extend this formal apology to Indian people for the 
historical conduct of this agency.
    And while the BIA employees of today did not commit these wrongs, 
we acknowledge that the institution we serve did. We accept this 
inheritance, this legacy of racism and inhumanity. And by accepting 
this legacy, we accept also the moral responsibility of putting things 
right.
    We therefore begin this important work anew, and make a new 
commitment to the people and communities that we serve, a commitment 
born of the dedication we share with you to the cause of renewed hope 
and prosperity for Indian country. Never again will this agency stand 
silent when hate and violence are committed against Indians. Never 
again will we allow policy to proceed from the assumption that Indians 
possess less human genius than the other races. Never again will we be 
complicit in the theft of Indian property. Never again will we appoint 
false leaders who serve purposes other than those of the tribes. Never 
again will we allow unflattering and stereotypical images of Indian 
people to deface the halls of government or lead the American people to 
shallow and ignorant beliefs about Indians. Never again will we attack 
your religions, your languages, your rituals, or any of your tribal 
ways. Never again will we seize your children, nor teach them to be 
ashamed of who they are. Never again.
    We cannot yet ask your forgiveness, not while the burdens of this 
agency's history weigh so heavily on tribal communities. What we do ask 
is that, together, we allow the healing to begin: As you return to your 
homes, and as you talk with your people, please tell them that time of 
dying is at its end. Tell your children that the time of shame and fear 
is over. Tell your young men and women to replace their anger with hope 
and love for their people. Together, we must wipe the tears of seven 
generations. Together, we must allow our broken hearts to mend. 
Together, we will face a challenging world with confidence and trust. 
Together, let us resolve that when our future leaders gather to discuss 
the history of this institution, it will be time to celebrate the 
rebirth of joy, freedom, and.progress for the Indian Nations. The 
Bureau of Indian Affairs was born in 1824 in a time of war on Indian 
people. May it live in the year 2000 and beyond as an instrument of 
their prosperity.
                                 ______
                                 

    Prepared Statement of Tex Hall, President, National Congress of 
                            American Indians

    Dosha! Good morning Chairman McCain, Vice Chairman Dorgan, and 
members of the committee. My name is Tex Hall, and I am president of 
the National Congress of American Indians and chairman of the Mandan, 
Hidatsa and Arikara Nation of North Dakota.
    NCAI is the oldest and largest American Indian organization in the 
United States. I sit before you today representing over 250 tribal 
governments and thousands of Indian people. NCAI was founded in 1944 in 
response to termination and assimilation policies that the United 
States forced upon the tribal governments in contradiction of their 
treaty rights and status as sovereign governments. Today NCAI remains 
dedicated to protecting the rights of tribal governments to achieve 
self-determination and self-sufficiency.
    On behalf of NCAI, thank you for giving me the opportunity to 
testify in regard to S.J. Res. 15, which would acknowledge the many 
misdeeds of the United States in its interaction with Native Americans 
and recognize and honor the importance of Native Americans to this land 
and to our nation--in the past and today. I also want to thank Senator 
Sam Brownback for his leadership in introducing this resolution and 
Senators Boxer, Dodd, Inouye, Dorgan, Cochran, and Akaka for 
cosponsoring the Apology Resolution.
    We all know the atrocities wrought against Native people in the 
United States--the holocaust, the land theft, the forced removals, the 
boarding school experience completely wiping out the language and 
cultures of our Native brothers and sisters, the broken treaties, and 
the attempts to undermine our status as sovereign nations. Passage of 
the Apology Resolution would mark the Federal Governments first effort 
to extend an official apology for the years of wrongdoing in 
interactions with Indian tribes.
    It is a long-time coming.
    A similar Apology Resolution enumerating the various wrongdoings of 
the United States Government in relation to the Native Hawaiians and 
the Kingdom of Hawai'i was passed and signed into law by President 
Clinton in 1993. The Canadian Government likewise apologized to its 
First peoples in 1998.
    The NCAI leadership worked with Congressional leadership in the 
last Congress to analyze the impact of this landmark resolution, which 
was first introduced during the 108th Congress by Senator Brownback, 
for himself, Senator Ben Nighthorse Campbell, and Senator Inouye. NCAI 
solicited responses to the proposed language from tribal leaders and 
facilitated discussion among tribal leadership and Congress on the 
issue. Tribal leadership across Indian country continues to give a 
variety of responses to the Apology Resolution, and I would like to 
share some of those responses with you today.
    First, it is important to recognize that the intensity of the 
reaction of tribal leaders to the Apology Resolution demonstrates that 
the destructive policies addressed in this resolution are not a fading 
distant past for Indian peoples; they are present harms that continue 
to be felt in very real ways every day. We continue to live with the 
legacy of the Federal Government's misguided policies of the past, as 
well as present day policies that undermine our ability to live as 
robust, healthy, self-determining peoples. Tribal leaders have stressed 
that the apology must recognize contemporary, and not just historical, 
problems in Indian-government relations.
    Many government policies continue to reflect a reluctance to truly 
recognize tribes as sovereigns. For example, tribes, unlike other 
governments, are limited in their ability to raise money by issuing tax 
exempt bonds. Tribes are also left out of the funds that the Federal 
Government has directed to every State in this Nation for emergency 
response and homeland security. Tribal law enforcement agencies do not 
have the jurisdiction and resources they need to protect public safety, 
and recent Supreme Court decisions have blurred the lines of 
jurisdiction at the borders between state and tribal lands.
    Tribal leaders have commented that an apology may be the first step 
in a reconciliation process between tribes and the U.S. Government, but 
for this to be true, the apology must be more than just words on paper. 
There is a lot of unfinished business that must be attended to before 
true reconciliation can be achieved. As one tribal leader has said, 
apologizing does not in any way wipe the slate clean or let anyone off 
the hook.
    I had the opportunity recently to testify before this committee on 
the President's proposed budget for fiscal year 2006. As I said at the 
time, Indian people are deeply disappointed that this budget does not 
support strong tribal self-government and self-determination. The 
President has proposed drastic budget cuts to many of the programs that 
are vital to the health and well-being of our people. For example, 
American Indians and Alaska Natives have a life expectancy 5 years less 
than all other races in this country and suffer from high rates of 
diabetes, heart disease, suicide, cancer, and alcoholism. Despite these 
health disparities, the per capita expenditure for American Indian and 
Alaska Native medical services is less than one-third of the average 
annual expenditure for individual Medicaid assistance, and is even less 
than the Nation's per capita health expenditure for Federal prisoners. 
These programs are guaranteed to us by solemn treaties and tribes paid 
for these services by ceding about 3 billion acres of land to the 
Federal Government. A strong Federal commitment to make good on old 
promises to provide resources for services, prevention programs, and 
health care facilities is badly needed to turn around the troubling 
health statistics in Indian country and is an important step toward 
reconciliation.
    To many, an apology rings hollow when the U.S. Government is 
continuing to fail to fulfill its treaty promises. Only when coupled 
with a continued commitment to the government to government 
relationship and to Federal Indian programs like health, education, and 
housing, can the Apology Resolution truly begin to make a meaningful 
difference for Indian tribes. Otherwise, as one tribal leader put it, 
the resolution will be like apologizing for stepping on someone's foot 
while you continue to stand on it.
    The message I would like to leave you with today is that passage of 
the Apology Resolution may be an important and meaningful first step 
toward reconciliation. Native Americans have come through 
extraordinarily trying times over the past two centuries, and we have 
emerged strong. Native Americans are the fastest growing segment of the 
population by percentage--in the face of policies aimed at ensuring our 
destruction, we have chosen survival. However, we have a long way to 
go. An apology implies a recognition that an injustice occurred. And 
the importance of this recognition cannot be underestimated. It also 
implies, however, that there is a will to try to do something about the 
harms that are caused by that injustice. True healing must begin with a 
recognition of the harm, but it cannot stop there. An apology cannot 
substitute for upholding the hundreds of treaties made with Indian 
nations and fully living up to the Federal trust responsibility. Tribal 
leaders have cautioned that the apology will be meaningless if it is 
not accompanied by actions that begin to correct the wrongs of the past 
and the present. Indian sovereignty is still under threat and Indian 
people are still being left behind in this country. We look forward to 
working with you as we move forward in taking the next steps toward 
reconciliation and securing the future for Indian peoples.
                                 ______
                                 

 Prepared Statement of Edward K. Thomas, President Central Council of 
             the Tlingit and Haida Indian Tribes of Alaska

    Greetings from Alaska! My name is Edward K. Thomas. I am the 
elected president of the Central Council of the Tlingit and Haida 
Indian Tribes of Alaska, a federally recognized Indian tribe of more 
than 26,000 tribal citizens. Southeast Alaska is the ancestral homeland 
of the Tlingit and Haida people. I have been the president of my tribe 
since 1984. I have been managing Federal program contracts and grants 
since 1975.
    First, let me thank this very distinguished committee for holding 
this hearing on an apology to Native Americans by the United States.
    Second, thank you for the invitation to express my views on this 
effort.
    Webster's College Dictionary defines apology as: An expression of 
regret for having committed an error or rudeness.
    In order to appreciate this definition we need to look at what 
regret means: To feel sorrow or remorse for an act.
    In the instance of this apology it is clear that some in the U.S. 
Government are sorry and remorseful for the errors and rudeness of past 
years toward Native Americans while others are not.
    I have concluded that the majority of Federal officials are not 
really sorry or remorseful in the deeds of the United States toward 
Native Americans. If there was indeed widespread sorrow and 
remorsefulness in the Federal Government on the wrong-doing to Native 
Americans then:

  <bullet> \\\\\\The Congress and the President would have stepped 
        forward and adopted apology legislation at the first suggestion 
        of an apology.
  <bullet> \\\\\\The constant erosion of tribal sovereign rights and 
        powers in favor of states' rights and powers would have been 
        stopped.
  <bullet> \\\\\\The ``Third-World'' conditions that exist in Indian 
        country would have been eradicated by now through meaningful 
        increases in appropriations in Indian programs.
  <bullet> \\\\\\The advice of tribal leaders would be taken seriously. 
        ``Tribal Consultation'' is a meaningless process when words are 
        spoken but no positive action is taken.

    There are a number of serious problems that continue in the 
relationship between our people and the United States. An apology to us 
while ignoring the Third-World conditions of so many of our people 
somehow just doesn't seem genuine:

  <bullet> \\\\\\We have to sue the United States time and again over 
        indirect cost moneys that laws mandate that the Government give 
        to us automatically to run Federal programs.
  <bullet> \\\\\\United States courts rule in favor of states' rights 
        at the expense of Native American rights much of the time even 
        though the doctrine of tribal rights and powers have supposedly 
        been settled decades ago by earlier court rulings that were 
        favorable to tribes.
  <bullet> \\\\\\Study after study shows that Federal funding to our 
        people is less than the funding to the rest of the population 
        on a per capita basis, yet it makes no difference to those who 
        allocate funding for our needs.
  <bullet> \\\\\\Federal prisoners get more healthcare dollars per 
        capita than Native Americans.
  <bullet> \\\\\\There is absolutely no reason why the Federal tax laws 
        can't be amended to make it ultimately clear that all federally 
        recognized tribes have the same status as States.
  <bullet> \\\\\\I don't see appropriations bills introduced to provide 
        full funding to indirect costs notwithstanding findings in our 
        favor in the Cherokee Case.
  <bullet> \\\\\\Tribal leaders asked the President and the Congress 
        not to take valuable Federal program money appropriated to 
        address serious social and economic problems in Indian country 
        to fix the Trust Management problems it created for itself 
        through mismanagement, yet tribal programs have been taxed to 
        pay for Bureau of Indian Affairs [BIA] Trust Management reform 
        and reorganization.
  <bullet> \\\\\\There are no promises that there will be total 
        appropriations for any settlement of the Cobell Case. If there 
        is a court settlement or a legislative settlement much of the 
        money to settle will most likely come out of existing Indian 
        programs just like what is happening in the funding of the 
        Office of the Special Trustee.
  <bullet> \\\\\\All of Indian country gets a bad grade from the 
        appropriators based entirely on the management weaknesses in 
        the Department of the Interior--BIA. Even now the Office of 
        Management and Budget [OMB] is scoring their Program Assessment 
        Rating Tool [PART], relying entirely on BIA Central Office 
        abilities to generate reports and statistics that accurately 
        reflect program value in Indian country. Absolutely no value is 
        given to how well or poorly tribal governments are doing 
        relative to the scoring criteria.
  <bullet> \\\\\\Needless to say I can go on and on but you get the 
        picture.

    While I applaud your personal interest and commitment to making 
things right on this topic I must say that I have difficulty with 
spending so much time, precious government resources, and political 
cards on such extensive talk on an apology. There are so many other 
important issues in Indian country that do not get proper consideration 
due to limited time.
    There are so many other important challenges facing my people that 
I truly wish there was more time to talk to you and the whole Congress 
about these issues in a forum similar to this. As this nation faces 
some very challenging times due to Federal budget deficits we don't 
talk enough about the impact of this reality on this nation's first 
peoples. I am not suggesting that benefits to Native Americans 
increased in times of surplus because they don't what I am saying it 
that history shows that problems in our poverty stricken Indian 
communities increase during times of Federal budget deficits and 
reduced domestic spending. It appears to me that the efforts of trying 
to secure an apology from the United States is dreadfully distracting 
from our important issues instead of drawing more focused attention to 
the gravity of human problems in Indian country.
    The best thing that could possibly come out of an apology is the 
United States improving its treatment and strengthening its 
relationship with Native Americans as a result of the apology. I fear, 
however, that if an apology does come it will be perceived by many 
Federal officials that this is a closure to the Federal 
responsibilities to our people. I worry that uninformed, wellmeaning 
law makers will respond to our future requests for help in addressing 
the problems of our needy as though these requests are above and beyond 
reasonability; saying, ``We already apologized for helping create those 
deplorable situations, what more do they want?'' This happens even now. 
Some feel that because there is a BIA that all of the needs of our 
people are being addressed. Most are not aware that funding to the BIA 
has lost ground to inflation for over 25 years while the cost of doing 
business in Indian country has gone up at the same rate.
    If this Nation apologizes to Native Americans for past decades and 
centuries of wrongdoing to Native Americans will I accept it on behalf 
of our people? Out of respect to you and others in Congress who are 
sincere: Yes!
    Do I feel good that things will be good after an apology and our 
relations will improve? No. The only way this could happen is if there 
was language in an apology legislation making it ultimately clear that 
an action plan would be put in place immediately to effectively 
eradicate the social and economic problems in Indian country and then 
Federal programs would be put in place and appropriated based on real 
need and not just comparing new efforts to the past performance of the 
BIA.
    Please read the attached article by D. Bambi Kraus on an apology by 
former Assistant Secretary Gover.
    I apologize if I have offended anybody in my comments. I do not 
intend to paint a sensationalized negative picture of the Federal 
relationship to Indian country but, rather, I am attempting to 
reincorporate a degree of realism in our thinking when it comes to an 
apology. I am very concerned that these efforts draw so much precious 
time away from the real problems in Indian country and there is indeed 
great need to spend more time talking about our important issues. I am 
grateful for things that the United States has done for our people in 
the past but, working together, more can and should be done to improve 
conditions in Indian country.
    Thank you for the opportunity to share my thoughts with you today.
    Gunalcheesh! Howa!

    [The copyright 2000 article of D. Bambi Kraus cannot be reprinted 
or electronically distributed without permission. For information 
please call the Progressive Media Project for information, 608-257-
4626.]

                                 <all>

</pre></body></html>
